C'OCKLE

2311 Douglas Street CA can E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ae fs contact@cocklelegalbriefs,com
st.1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1603

SUSAN BENNETT,
Petitioner,
v.
AMERICAN FEDERATION OF STATE, COUNTY
AND MUNICIPAL EMPLOYEES, COUNCIL 31, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF GOLDWATER
INSTITUTE AND CATO INSTITUTE AS AMICI CURIAE SUPPORTING PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3867 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 26th day of August, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v a Z :
RENEE J. GOSS 9. ¢ decd taser *
My Comm. Exp. September 5, 2023

Notary Public Affiant 41322
